<html>
<title> - NEW APPROACHES AND INNOVATIVE TECHNOLOGIES TO IMPROVE WATER SUPPLY</title>
<body><pre>[Senate Hearing 114-296]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-296

   NEW APPROACHES AND INNOVATIVE TECHNOLOGIES TO IMPROVE WATER SUPPLY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 20, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://www.gpo.gov/fdsys
                             __________
                             
                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-688 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001  
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 20, 2016
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3

                               WITNESSES

Dalton, James, Chief, Engineering and Construction, U.S. Army 
  Corps of Engineers.............................................     6
    Prepared statement...........................................     8
    Response to an additional question from Senator Inhofe.......    18
Bilodeau, Denis R., P.E., First Vice President and Director, 
  Board of Directors, Orange County Water District...............    19
    Prepared statement...........................................    21
Price, Kevin, Senior Science and Technology Advisor, Middle East 
  Desalination Research Center...................................    30
    Prepared statement...........................................    32
    Response to an additional question from Senator Inhofe.......    37
 
   NEW APPROACHES AND INNOVATIVE TECHNOLOGIES TO IMPROVE WATER SUPPLY

                              ----------                              


                       WEDNESDAY, APRIL 20, 2016

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. in 
room 406, Dirksen Senate Building, Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Capito, Crapo, Fischer, 
Rounds, and Gillibrand.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Meeting will come to order. We apologize 
for being a few minutes late. We had a vote at 10 o'clock. So 
that is our daytime job, and we have to do it.
    Drought conditions are still--well, they have and they 
still affect many regions of the country. California and 
Oklahoma have been dramatically affected. This morning we have 
witnesses that represent Orange County, California, promising 
new technologies of desalination, and the U.S. Army Corp of 
Engineers.
    For the vast majority of the past 6 years, Oklahoma 
suffered from a devastating drought event that had nothing to 
do with global warming, I might add. As the drought reached its 
worst in the summer of 2014, more than 60 percent of Oklahoma 
was in the U.S. Drought Monitor's ``extreme'' category. More 
than 30 percent of the State's land area was experiencing 
``exceptional'' drought or worse category.
    Communities were rationing water. Some communities in the 
hardest hit areas looked to re-use of wastewater and tapping 
unconventional sources or those of marginal quality for non-
potable uses in order to free up more valuable fresh water 
supplies.
    Evaporating lakes and ponds in Oklahoma forced cattlemen to 
sell their herds and oil companies to search for increasingly 
expensive alternatives to continue production.
    Abundant rainfall to excessive flooding conditions occurred 
nearly a year ago which caused dangerous situations throughout 
Oklahoma but greatly improved our water supply, at least for 
the time being.
    Our water supplies are also overtaxed with old and often 
failing infrastructure not able to keep pace with demand. These 
problems affect communities all across the Nation. It is not 
exaggerated to say that water supply issues limit growth and 
impose a very real threat to local and regional economies and 
people's quality of life.
    However, in Oklahoma, the communities have started planning 
with business groups, agricultural interests and the energy 
sector on the local level to develop regional water action 
plans to resolve their mutual water problems. The foundation of 
the water action plan model demonstrates that water, as the key 
element in the State and local economies, it focuses on 
unifying and enforcing stakeholders to develop near-, short- 
and long-term regional strategies to maximize reliability and 
diversify the supply of water.
    The severe drought conditions Oklahoma encountered forced 
us to identify new sources of groundwater and further develop 
our existing underwater supplies to address our over-reliance 
on surface water, to build infrastructure and pipelines to 
reliable underused water resources, building new wells--we have 
tried it all. City planning and regional planning have been the 
most efficient way of preparing to address the water supply 
problems, but there are supportive roles for State and Federal 
Government to assist our communities, and there are roles for 
corporate citizens as well.
    For example, one area in Oklahoma hardest hit by the 
drought is the city of Enid, Oklahoma. One innovative example 
by the Koch Industries' is their nitrogen plant, one of the 
largest fertilizer production plants in North America, uses the 
city of Enid's treated wastewater for in-plant cooling water. 
Eventually, this re-use project will free up almost 5 million 
gallons of water each day. That's almost one-half of Enid's 
total current usage.
    The Federal Government can have a role to play in assisting 
the regional infrastructure planning among States. An example 
of that are the chloride control actions on the Red River 
between Oklahoma and Texas. These projects were specifically 
authorized by Congress dating back to 1966, with chloride 
control studies beginning at the Red River as early as 1959.
    Chloride control actions in Oklahoma and Texas have and 
will provide new drinking water supplies, increase agricultural 
irrigation and improve downstream water quality. In fact, Mr. 
Dalton, I am currently working with the Corps, their Tulsa 
district office, to develop a general reevaluation and review 
and record a decision for the Elm Fork Chloride plant in 
Oklahoma.
    At one point, some reservoirs in Oklahoma were less than 20 
percent capacity. Now, many are nearly full with multiple year 
supply. Although, presently the drought has subsided, plans 
must continue, too, so that we know it is going to be coming 
back.
    It is kind of funny, when we talk about this issue, for me 
anyway. This was an issue in Oklahoma way back when I was in 
the State legislature. The big issue at that time was 
transporting the water from eastern Oklahoma to western 
Oklahoma. It was really a situation that made everybody mad. So 
this is not a new situation, and it is not just local to 
Oklahoma. It is across the Nation.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Drought conditions have affected and still affect many 
regions of the country. California and Oklahoma have been 
dramatically affected. This morning we have witnesses which 
represent Orange County, California, promising new technologies 
in desalination, and the U.S. Army Corps of Engineers.
    For the vast majority of the past 6 years, Oklahoma 
suffered from a devastating drought event. As the drought 
reached its worst in the summer of 2014, more than 60 percent 
of Oklahoma was in the U.S. Drought Monitor's ``extreme'' 
category. More than 30 percent of the State's land area was 
experiencing ``exceptional'' drought, the worst category. 
Communities were rationing water. Some communities in the 
hardest hit areas looked to re-use of wastewater and tapping 
unconventional sources or those of marginal quality for non-
potable uses in order to free up more valuable fresh water 
supplies. Evaporating lakes and ponds in Oklahoma forced 
cattlemen to sell their herds and oil companies to search for 
increasingly expensive alternatives to continue production.
    Abundant rainfall to excessive flooding conditions occurred 
nearly a year ago which caused dangerous situations throughout 
Oklahoma but greatly improved our water supply, at least for 
the time being.
    Our water supplies are also over-taxed with old and often 
failing infrastructure not able to keep pace with demand. These 
problems affect communities all across the Nation. It is not 
exaggerated to say that water supply issues limit growth and 
pose a very real threat to local and regional economies and 
people's quality of life.
    However, in Oklahoma, communities have started planning 
with business groups, agricultural interests, and the energy 
sector on a local level to develop regional Water Action Plans 
to resolve their mutual water problems. The foundation of the 
Water Action Plan model demonstrates that water is the key 
element in State and local economies. It focuses on unifying 
and forcing stakeholders to develop near-, short- and long-term 
regional strategies to maximize reliability and diversify the 
supply of water.
    The severe drought conditions Oklahoma encountered forced 
us to identify new sources of groundwater and further develop 
our existing underground supplies to address our over-reliance 
on surface water, build new infrastructure and pipelines to 
reliable and underused water sources, build new wells, improve 
and refurbish existing reservoirs, and change water use 
ordinances to encourage or require more water conservation.
    City planning and regional planning have been the most 
efficient way of preparing and addressing water supply 
problems, but there are supportive roles for State and the 
Federal Government to assist our communities, and there are 
roles for our corporate citizens as well.
    For example, one area in Oklahoma hardest hit by drought is 
the city of Enid, Oklahoma. One innovative example by the Koch 
Industries' nitrogen facility, one of the largest fertilizer 
production plants in North America, uses the city of Enid's 
treated wastewater for in-plant cooling water. Eventually, this 
re-use project will free up almost 5 million gallons of water 
each day--that's almost one-half of Enid's total current usage.
    The Federal Government can have a role to play in assisting 
in regional infrastructure planning among States. An example of 
that are the chloride control actions at the Red River between 
Oklahoma and Texas. These projects were specifically authorized 
by Congress dating back to 1966 with chloride control studies 
beginning at the Red River as early as 1959. Chloride control 
actions in Oklahoma and Texas have and will provide new 
drinking water supplies, increased agricultural irrigation, and 
improved downstream water quality. In fact, Mr. Dalton, I am 
currently working with Corps' Tulsa District Office to develop 
a general reevaluation review and record of decision for the 
Elm Fork Chloride Control Plan in Oklahoma.
    At one point, some reservoirs in Oklahoma were less than 20 
percent capacity. Now, many are nearly full with multiple 
years' supply. Although presently the drought has subsided, 
plans must continue so our communities are prepared for both 
uncertainties but for growth as well. I look forward to hearing 
from our witnesses this morning and new opportunities.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. I really want to thank you so much for this 
hearing. We have some contentious hearings, I do not think this 
one will be such. Because we are going to discuss innovative 
technologies to improve water supply. This is something very 
dear to me and significant for my home State of California.
    I tell you, I have gotten into some pretty heated 
conversations, I was telling the Chairman, in my State, because 
I really do support these technologies. Others just turn away, 
say, it is too expensive, or we shouldn't do this. There could 
be unlimited supplies of water for growth and all the rest.
    To me this is a moment in time--whether we believe climate 
change is causing these droughts or not, what is the 
difference? We don't have to fight about that. The fact is we 
are dealing with these droughts.
    And so I know this issue is dear to me, as I see what is 
happening. Even though we have had El Nino this year, it didn't 
live up to expectations. It certainly has done a lot to help 
us. But we know we are looking at long-term problems. We have 
horrible arguments between all the stakeholders, whether 
between the agricultural people and the fishing industries, and 
the urban users and the suburban users. And they fight all the 
way to the courthouse door.
    And Mr. Chairman, you and I know when you get to the 
courthouse door one thing happens: delay, confusion, we don't 
know the rules of the game. We need to have a water supply that 
is there for us.
    Now, I am so pleased to have Denis Bilodeau here from the 
Orange County Water District. I am really happy to see you, 
Denis, because you have been engaged in the development and 
implementation of water supply technologies for many years.
    Orange County, my latest notes say, tell me if I am wrong, 
is the sixth largest county in our Nation. We have 2.4 million 
people just in Orange County alone. Is that about right?
    Mr. Bilodeau. We have 2.4 million in our service area; 
there are 3.2 million in total in Orange County.
    Senator Boxer. Three point two million, 2.4 million in your 
service area. So we are literally talking about making sure 
people can live comfortably and have the water that they need.
    This severe drought has forced our Governor to declare a 
drought state of emergency. We have water restrictions. Again, 
even though El Nino has done better up north, it has not done 
that well down south. We know that we can expect more droughts 
in the future.
    So we do face many challenges associated with this ongoing 
drought, including over-tapped aquifers, mandatory water 
restrictions, threats to our Bay-Delta ecosystem, to our 
fisheries, to our agriculture. When you mention water in 
California, everybody's back goes up because there are so many 
arguments going on over diminishing resources.
    My view as a United States Senator is I do not take sides 
between the jobs in the fishing industry and the jobs in 
agriculture; they are all jobs. I don't take sides; I am trying 
to get everyone to the table. I believe--that is why I am so 
proud that my Chairman shares this, that we need to look at 
ways to avoid these terrible battles. That means a bigger water 
supply.
    When you get into where do you put in a dam, that starts 
the march to the courthouse door. But if we were to be able to 
move forward with desal, move forward with recycling, move 
forward with conservation that makes sense, we don't have to 
fight over these supplies. We need to work together to expand 
the pool by using our water more intelligently and making sure 
we can tap into these technologies.
    So we are very fortunate, Mr. Chairman, to have two 
excellent witnesses. We probably have three excellent 
witnesses. I know two of them who will offer thoughts on how 
the Government can help. The Orange County water district will 
explain how it converted wastewater into 100 million gallons 
per day of clean safe drinking water, enough for 850,000 
people.
    Mr. Price will talk about his experiences with desal in the 
Middle East, particularly in Israel where so much truly 
innovative water supply activity is occurring. So when people 
look at desal and they say, oh, what are you thinking, they 
should just talk to the folks who have been living with this 
technology for a very long time.
    I am also pleased that the Corps is here, because they have 
such an important responsibility for managing water around the 
country. The Corps operates 30 dams and reservoirs just in 
California. These reservoirs serve critical water supply needs. 
The Corps must employ the latest technologies to ensure these 
reservoirs are operated efficiently and can meet the growing 
water supply challenges.
    I think today we can look for these opportunities to invest 
in new technologies. We can also learn from our international 
partners, such as Israel, who has confronted these supply 
challenges.
    In closing, I would say this we have a chance in this WRDA 
bill to make some more history, Mr. Chairman, to take a look at 
this and start a new way of looking at water supply. Because 
drought faces us; it always has, and it always will. It could 
get worse. We are not sure, but we can't take a gamble on water 
supply.
    Thank you.
    Senator Inhofe. One thing, Senator Boxer, that neither one 
of us mentioned is the significance of the water in terms of 
our military. It happens that right now in the audience we have 
Bill Burgess and several of them from the city, from Fort Sill, 
which is the city of Lawton. Right next door to it is Altus Air 
Force Base. And it is something that really is critical. 
Because the needs of those two, we have gotten to the point of 
where they would almost have to shut them down from time to 
time. That is a huge issue also it is affected by this.
    We welcome you to observe. You are observing a hearing 
where Barbara and I love each other. We don't have any 
disagreements. That is rare. But I hope you enjoy it.
    We have three witnesses.
    Senator Boxer. Remember this moment.
    [Laughter.]
    Senator Inhofe. We have three witnesses. Mr. Denis 
Bilodeau, First Vice President and Director of the Orange 
County Water District, as Senator Boxer said. Mr. James Dalton, 
we know him, Chief, Engineering and Construction, U.S. Army 
Corps of Engineers. Mr. Kevin Price, Senior Science and 
Technology Advisor in the Middle East Desalination Research 
Center.
    So we welcome all three of you here. We will start with 
you, Mr. Dalton, and we will kind of work down. Try to keep 
your opening statements to close to 5 minutes. You are 
recognized.

         STATEMENT OF JAMES DALTON, CHIEF, ENGINEERING 
         AND CONSTRUCTION, U.S. ARMY CORPS OF ENGINEERS

    Mr. Dalton. Thank you, Chairman Inhofe, Ranking Member 
Boxer, and other distinguished members, thank you for the 
opportunity to present information about the U.S. Army Corps of 
Engineers Civil Works program activities related to drought and 
drought technologies.
    I would like to briefly discuss drought in general terms 
and then provide some information on the actions that we have 
taken with respect to drought, and finally touch on drought 
technologies we are investigating.
    Drought, of course, is a deficiency in precipitation over 
an extended period, usually over weeks, months, or years, 
resulting in water shortage causing adverse impacts on 
vegetation. But drought is a lot more complex than just the 
lack of water. Drought is a relatively common weather related 
phenomenon in North America and occurs to some extent every 
year in some parts of the U.S. It affects our agricultural 
water supply and many other aspects of our well-being.
    The Corps performs water management activities at its 
reservoirs consistent with the project specific, 
congressionally authorized purpose or purposes for each 
reservoir.
    Two missions we often balance competing needs during 
periods of drought are flood risk management and water supply. 
It is important to keep in mind that most dams in the current 
drought areas are solely authorized for flood risk management.
    For instance, as Senator Boxer just mentioned, the Corps 
operates about 30 dams in California. Seventeen of those are 
mostly for single purpose flood risk management, and 13 have 
multiple purposes.
    Generally speaking, the Corps will not construct a project 
solely for water supply but may include water supply as a 
purpose in a project constructed primarily for one or more of 
the three mission areas of the Corps of Engineers, which are 
flood and storm damage risk reduction. No. 2, commercial 
navigation and No. 3, for aquatic ecosystem restoration.
    The Corps water supply authorities recognize that the 
States and non-Federal entities have the primary responsibility 
in the development and management of their water supplies. 
Water rights, of course, are the responsibility of the States. 
The Corps does not own or sell water.
    Water supply storage in a Corps reservoir may be a key 
component of the water supply plans for non-Federal entities. 
So non-Federal entities that do not have storage in a Corps 
reservoir may request that the Corps study and consider 
reallocating existing storage from another authorized purpose 
to water supply.
    Corps reservoirs are operated according to water control 
manuals, which by policy include reservoir rule curves, and 
where appropriate it includes drought contingency plans. The 
purpose of the drought contingency plans is to provide a basic 
reference for water management decisions and responses to a 
water shortage in a basin due to drought.
    The Corps is working on methods and Web tools to assist in 
understanding the projected droughts and how will this impact 
Corps projects. The results of this work will serve as a guide 
for developing a strategy to update the existing drought 
contingency plans.
    The U.S. National Climate Assessment, published in 2014, 
reported that climate is changing and is projected to continue 
to change. The expected changes vary regionally and include 
warming temperatures, resulting in altered precipitation 
patterns, increasing heat waves and changing snow patterns and 
droughts.
    There are two current efforts that we have underway to try 
and assist with our ability to manage water resource for 
climate preparedness and resilience. The first effort is 
developing and implementing methods to update our drought 
contingency plans to account for climate change. A second 
method is to enhance reservoir sediment information to assist 
in climate preparedness and resilience by helping to identify 
current and future reservoir sediment volumes, which can affect 
food and water supply.
    And a third effort we have ongoing is the Forecast-Informed 
Reservoir Operations research at Lake Mendocino, which is a 
pilot study that would use atmospheric river forecasting to 
inform water management decisions in a manner which reflects 
current and forecasted conditions. The results may indicate 
whether this technology can be applied in actual operations of 
certain projects.
    In summary, the combinations of water control manuals and 
deviations that we can have with those manuals provide a great 
deal of flexibility to respond to short- term or long-term 
needs based on best available information and science 
consistent with each project's congressionally authorized 
purposes.
    Thank you.
    [The prepared statement of Mr. Dalton follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Inhofe. Thank you, Mr. Dalton.
    Mr. Bilodeau.

STATEMENT OF DENIS R. BILODEAU, P.E., FIRST VICE PRESIDENT AND 
   DIRECTOR, BOARD OF DIRECTORS, ORANGE COUNTY WATER DISTRICT

    Mr. Bilodeau. Thank you Mr. Chairman, Ranking Member Boxer 
and members of the committee. I am Denis Bilodeau, and I am the 
First Vice President of the Board of Directors of the Orange 
County Water District. I am deeply honored to appear before you 
today to discuss the most pressing issues of our time: the 
provision of safe and reliable water supply.
    The Orange County Water District is located in Fountain 
Valley in Southern California and provides groundwater to 
Orange County, including 19 cities and water agencies serving 
2.4 million people. Since 1933, we have taken great pride in 
advancing the development of sustainable water supplies.
    In Orange County we live in a desert. The base flow of the 
Santa Ana River, our main source of surface water, continues to 
decline. Imported water supplies from Northern California and 
Colorado are restricted.
    In the late 1980s we recognized that to preserve our 
region's economic and social vitality, the challenges of 
groundwater depletion, seawater intrusion and unreliable 
surface water demanded an innovative solution. This initiative 
grew into the Groundwater Replenishment System, which is a 
joint project between my district and the Orange County 
Sanitation District.
    The GWRS is the world's largest advanced water purification 
system for potable re-use. It takes treated wastewater that 
otherwise would be sent to the Pacific Ocean and purifies it 
using a three-step advanced process. This treatment and 
purification process produces high quality water that exceeds 
all State and Federal drinking water standards.
    We are currently producing 100 million gallons a day which 
is about 25 percent of our water supply. Our next and final 
planned expansion will provide an additional 30 million gallons 
a day.
    Senator Boxer, it was during your term on the Senate 
Appropriations Committee that you were able to secure our first 
Federal appropriation toward construction of the GWRS. Over a 
5-year period, $20 million in Federal funding from the Bureau 
of Reclamation's title XVI program leveraged over $72 million 
in State, local and private funding to provide for the overall 
$481 million construction of the Groundwater Replenishment 
System. We greatly appreciate that. The GWRS has allowed our 
region to take control of our future.
    There is no one size fits all solution to water re-use. The 
GWRS establishes a technology foundation to design and build 
innovative approaches to sustainable water needs. Therefore, I 
encourage the committee to include funding for water re-use in 
the WRDA reauthorization.
    Second, our district is currently exploring purchasing more 
than 50,000 acre-feet per year of desalinated sea water or 
enough water for more than 400,000 people from the purposed 
Huntington Beach desalination project as a way to increase 
local water supplies. The proposed project will be built and 
operated by Poseidon Resources in the city of Huntington Beach. 
The project is scheduled for final hearing before the 
California Coastal Commission later this year. If approved by 
the Coastal Commission my board will consider moving forward 
with a purchase agreement for the water. The largest hurdle we 
face, of course, is the economics of ocean desalination.
    Finally, one of the most cost effective solutions that we 
avail ourselves involves water conservation. Conservation 
through reduced demand is not going to solve our overall need 
to assure that we have adequate water supplies. In order to 
supplement our conservation program, my district entered into a 
collaboration with the U.S. Army Corps of Engineers, who have 
been a great partner, to leverage the investment that our 
region and the Corps made in the construction of Prado Dam on 
the Santa Ana River. Rather than using Prado Dam for a single 
purpose flood protection, we recognized the potential of 
conserving water at Prado during storm events that could 
subsequently be recharged into our aquifer for future use. The 
alternative would be to lose this water supply as it coursed 
down the Santa Ana River to the Pacific Ocean.
    Senator Boxer, you were instrumental in assisting us in our 
negotiations with the Army Corps, and this year we have already 
accrued 31,000 acre-feet of water due to your efforts.
    Mr. Chairman, we appreciate your efforts for an orderly 
passage of the WRDA bill. We have provided suggested policy to 
facilitate enhanced conservation of Corps facilities. Our 
recommendations to the committee arise from our experiences 
over the past few years working with the Corps to implement a 
long-term agreement to store water with a priority placed on 
public safety in an environmentally protective manner. Simply 
stated, a clear statement on the priority to approve and 
implement water conservation activities needs to be made a part 
of the reauthorized WRDA.
    Also, we need a clear statement to ensure that costs are 
fairly allocated by guaranteeing that only the separable costs 
attributable to the water supply conservation is allocated to 
the local water agency.
    The ability to facilitate an expeditious and equitable 
agreement may seem like an obvious approach to implement an 
innovative and cost effective solution. But we need a strong 
statement on the matter as part of the reauthorization of WRDA. 
We stand ready to support the committee to this end.
    Again I thank you for the opportunity to appear before you 
today.
    [The prepared statement of Mr. Bilodeau follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Inhofe. Thank you very much.
    Mr. Price.

    STATEMENT OF KEVIN PRICE, SENIOR SCIENCE AND TECHNOLOGY 
       ADVISOR, MIDDLE EAST DESALINATION RESEARCH CENTER

    Mr. Price. Chairman Inhofe, Ranking Member Boxer and 
members of the committee, I am Kevin Price, Senior Science and 
Technology Advisor to the Middle East Desalination Research 
Center in Muscat, Oman.
    My passion throughout my career has been the application of 
new technology to the purification of nonconventional waters to 
increase water supplies, reduce the risks of drought, increase 
jobs and standards of living and to assist in resolving 
conflict around the world. I will focus my remarks on 
desalination and indirect and direct potable water re-use.
    Early in my Bureau of Reclamation career, I was responsible 
for the desalination research portion of the Science and 
Technology Agreement with Israel. During one of my trips, I was 
asked by a television reporter why someone from the U.S. was 
attending the Israel Desalination Society meeting. I explained 
that the problems and solutions Israel was currently solving 
would be important to the U.S. as it faced similar problems in 
the future.
    I currently work for MEDRC, which is an international 
institution created in 1996 as part of the Middle East Peace 
Process and is hosted by the Sultanate of Oman. Members of 
MEDRC include the Palestinians, Jordanians and Israelis as well 
as the U.S. Department of State. MEDRC works to address two 
grand challenges: water and peace. This is done through 
capacity building in training and research.
    There is an important technical distinction that must be 
made before proceeding with my remarks. Water purification 
means a number of things depending on the audience. Regulatory 
frameworks around the world describe what needs to be removed 
from water and to what levels. For many, this means removing 
suspended particles, bacteria, viruses and very large molecules 
through helping the particles to stick to each other followed 
by filtration. This will not work with many non-conventional 
sources, because a major portion of the contaminants is 
dissolved, not suspended as particles in the water.
    Desalination or the removal of dissolved materials is a 
fundamentally different process than filtration. Desalination 
is also a critical component of indirect and direct potable 
water re-use.
    No longer is it necessary to think of drinking water, 
wastewater and impaired water as separate entities. They are 
all water, waiting to have the containments removed to the 
desired level. Among the 21st century technologies are 
microfiltration, ultrafiltration, reverse osmosis, membrane 
bioreactors, humidification-dehumidification, capacitive 
deionization, closed circuit desalination, forward osmosis and 
a whole bunch of other technologies that people continue to 
develop.
    The lessons learned in Israel have consequences for the 
U.S. especially in the drought plagued areas near the sea. 
Israel's water supplies have been limited from its creation. 
They have had to learn how to conserve through public 
education, reducing water losses and appropriate pricing. 
Because the need for new sources was so immediate, they knew 
membrane technology, which was invented and commercialized in 
the U.S., would work and decided to move forward using 
desalination without perfect information. They had good 
knowledge from the experience of others and their own research 
on how to manage the environmental effects of desalination such 
as optimizing energy use, reducing chemical addition, reducing 
entrainment and impingement of intakes, and mixing of the 
outfall concentrate back into the ocean.
    In discussing this with Oded Fixler, the Deputy Director 
General of the Israel Water Authority, he said that technology 
is only technology, and it already works. The real issues are 
broader such as who owns the water, the cost of water, whether 
or not the cost is appropriate for crops and which crops, and 
who will subsidize. By developing desalination as a part of 
their integrated water resources, Israel was also able to 
develop an industry that can now compete internationally. It is 
important to note the differences between and a State like 
California. Not only is the control of water highly fragmented 
in California, the State is much larger than Israel. Israel has 
a population of around 8 million in 8 million square miles. 
California has a population of around 39 million in 164,000 
square miles. In addition, the opportunities to move water 
throughout Israel are much greater than in California.
    Some of the lessons I learned with my colleagues while I 
was in Reclamation for generating innovation and unsolicited 
proposal request for broad boundaries generates unexpected 
ideas and proposals. Innovation should follow progression 
related to risk taking and project size. Consistent funding at 
low levels is better than higher levels of inconsistent 
funding.
    It is imperative to have strong initial and periodic 
technical reviews combined with freedom to accept risk when 
studying the unknown. If research is to solve problems and meet 
needs, a strong technology transfer must exist to pull 
innovations from the laboratory into use. When moving 
technology to rapid implementation, demonstration provides the 
opportunity to involve all parties at an early stage.
    Mr. Chairman, this concludes my remarks. More detail can be 
found in my written statement, and I would be pleased to answer 
any questions at this time.
    [The prepared statement of Mr. Price follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Inhofe. Thank you, all three, very much.
    Let me just restate that in Oklahoma the legislative goal 
for chloride control is to reduce the naturally occurring 
chlorides in the Red River. Now, multiple studies dating back 
many, many years and designs have been completed, many of them 
by the Corps of Engineers--we are talking over 40 years ago, in 
1978 was one of them. Yet a single project has not been 
constructed in Area 6, that is Southwestern Oklahoma, despite 
the Corps spending $3.1 million in Area 6 over the past 10 
years.
    Now, my question would be to you, Mr. Dalton. If all of 
these studies and designs, at full Federal expense, have been 
completed over the past four decades, then why is the Corps 
asking for yet another study of the project to determine 
feasibility of building projects to reduce the chlorides in the 
Red River?
    Mr. Dalton. Mr. Chairman, that study we are looking at now 
for Area 6 started out, as you mentioned in your opening 
remarks, looking at now a re-evaluation of what had been 
previously completed for that particular study. I think it was 
maybe around 2005 or so that we looked at it and we started 
revising the study or updating the study. At that time, we ran 
out of money to do that.
    Since that time we have been looking and talking with the 
State and county for, looking for a non-Federal partner to cost 
share in that.
    Senator Inhofe. But there have actually been studies. They 
completed studies we are talking over a period of 40 years. I 
am looking at my situation. How do I go back to Oklahomans and 
ask them to spend money for a new feasibility study when we 
have gone through all of this? We have spent millions of 
dollars. Not a shovel has been in the ground yet.
    Did you listen to Mr. Price's testimony? Do you think there 
are some technologies--is this something, Mr. Price, where 
technology is moving in desalination right now, and there are 
areas like perhaps the area I referred to in Southwest Oklahoma 
that might be able to benefit from some of these?
    Mr. Price. Yes, chlorides can be removed by desalination.
    Senator Inhofe. Yes, but if it is as simple as that, then 
is it a matter of cost?
    Mr. Price. Generally, it is a matter of cost.
    Senator Inhofe. So your technology has not really had a 
dramatic improvement in terms of reducing the costs?
    Mr. Price. In the past 30 years it has had a dramatic 
improvement. Several orders of magnitude.
    Senator Inhofe. Is anything going on right now that we may 
be overlooking in Oklahoma?
    Mr. Price. I could discuss it with the Corps of Engineers. 
I am not aware that they would have kept up with the 
technology.
    Senator Inhofe. Have you kept up with all the technology, 
Mr. Dalton?
    Mr. Dalton. I am not familiar with exactly what the 
chloride removal we are looking at for this particular project. 
It is something we looked at as part of some of our other 
projects, I believe. I do not have specifics on that.
    What I would like to respond to, Mr. Chairman, is that we 
don't know how much is required to complete the study, how much 
more work is required. As far as talking with the non-Federal 
sponsor or citizens about why they should cost share, we plan 
on taking advantage of the work that has already been done. 
There's has been a number of parts of that study that have been 
completed.
    What we need to do now is to take a look at what has been 
done and determine what needs to be done so that we can provide 
you with the work that we think is remaining and the cost and 
schedule to do that.
    Senator Inhofe. Yes, that would be helpful. I remind you 
and everyone else who is here that next week Senator Boxer and 
I plan to go ahead and start the markup of the WRDA bill.
    Senator Boxer. Yes.
    Senator Inhofe. So we need this stuff now. I want to make 
sure that anything that can be done, and these projects are the 
kinds of projects we are dealing with in this bill. We want to 
stay on top of this thing, and yes, I would like to have--to be 
sure and I am sure as Mr. Price said, that the Corps has a lot 
of research and all that. But just make sure there is not 
something looming out there that would help us resolve this 
problem. Because right now, we are getting into the WRDA bill 
and that is what this is all about. Our intention is not to let 
these things slide. We should be doing the WRDA bill every 2 
years, and I think we are on schedule to do that. This is the 
type of thing that we are wanting to do.
    Senator Boxer.
    Senator Boxer. Thank you. That is music to my ears, and I 
hope we can avoid on either side any kind of poison pill 
amendments that do not belong there. I think we have shown that 
we can do that.
    So Mr. Bilodeau, do you view desal as a potential component 
of a comprehensive water supply system? I have a few questions 
on this, I will ask them all and then give you the time. Do you 
think it should be a component--is cost a concern as you 
explore the addition of desal to your water supply system? 
Could Federal water infrastructure loan programs help address 
some of these cost issues?
    Mr. Bilodeau. Senator Boxer, the answer is yes to all those 
questions. Definitely desalination, we are looking very closely 
at having that part of our portfolio of sources. Of course, we 
have the Santa Ana River which is sort of our free source of 
water, and we have the groundwater replenishment system as we 
discussed. Desalination would be sort of the third leg to the 
stool.
    Of course desalination is the most expensive, though, of 
those sources. But as you mentioned, Federal loan programs 
could certainly help with the cost of that.
    We are fortunate in that there are innovations taking 
place, though, in that arena with membrane technology, and we 
are looking forward to breakthroughs.
    Senator Boxer. Would you explain that to us in short what 
that means, membrane technology?
    Mr. Bilodeau. Well, in terms of reverse osmosis, of course, 
you are pulling the water molecules across a membrane. The 
private sector actually, I believe Lockheed Martin is 
developing a membrane called graphene. We have offered to pilot 
test their technologies in our plant, to look at the effect of 
it. Because we are very excited about these innovations, and we 
want to push those forward, because they are going to have 
worldwide implications and hopefully drive down the cost of 
that water.
    To put it in perspective, the water that we produce in our 
groundwater replenishment system the non-subsidized cost is 
about $850 an acre-foot whereas the cost of desalinated water 
is about $1,200 an acre-foot. So it is about 50 percent more 
expensive.
    Senator Boxer. I would just note, and I think my colleague 
agrees, everybody needs clean water. So when you are faced with 
a situation where maybe you have a water emergency, the cost 
diminishes because we need it. It is the staff of life in so 
many ways.
    So what we are trying to do is work with my colleague to 
get a lot of my Water-21 legislation in this. I think so far it 
has been great. We are looking at reauthorization of the 
Desalination Act. Mr. Chairman, if we can put that in the bill, 
reauthorize an act we already have, which would include desal 
pilot projects, also required development of drought resilient 
guidelines to help communities deal with drought, that would be 
helpful. I hope we could support new grants to support 
development of innovative technology and change or modify the 
SRF loan program to better support innovative technologies 
because we kind of haven't updated it in a while.
    Those four things, would you agree, would be a good start 
for us?
    Mr. Bilodeau. Absolutely. One of the bigger challenges we 
have is actually the distribution of the water because this 
will be a new plant that we are looking at in Huntington Beach. 
And the distribution system alone is over $100 million, just to 
move the water around to where we need it. So a loan program 
would be a tremendous help to us.
    Senator Boxer. How about the WIFIA program? The Chairman 
and I worked together to get that done. It is based on TIFIA 
which would allow you to leverage funds and get pretty much 
interest-free loans. Would that be helpful as well?
    Mr. Bilodeau. Interest-free, yes, we certainly could use 
that.
    Senator Boxer. Well, it is extremely low interest, because 
basically the interest rate is set based on the chance that you 
might default. It is very low, especially, I would say Orange 
County has proven it can get out of some trouble. You did in 
the worst situation after the market crash. How well I remember 
that and how hard that was.
    So let me turn to Mr. Price. Do you think the U.S. should 
have a greater role in water supply technology development? You 
discuss in your written testimony the historic role of the U.S. 
Government in developing desalination and other treatment 
technologies. But you say the investment has declined, and we 
are not participating in the new research as much as we were. 
Is that a correct reading of what you said?
    Mr. Price. That is correct. One of the ways that I 
investigated that was talking to one of the professional 
journal editors to get a feel as to how the number of 
scientific publications have changed over probably the last 30 
or 40 years. Basically the U.S. was a leader in the science of 
desalination 30 years ago. It has now dropped to maybe, it is 
an order of 10, 10 times less in terms of publication than it 
was in the past. I think that is probably due to the Federal 
funding more than anything else.
    Senator Boxer. Well, thank you. I don't have any other 
questions for the panel.
    I just want to say again to my Chairman, this is an area 
where I just think the work of this committee could really 
spark an entire new effort to rekindle the new technologies. We 
hear of defense companies that are looking at the ways to deal 
with desal. I think it is right there, and I just think a 
little spark from this committee could drive change and 
alleviate one of the biggest problems that we face as a Nation.
    And we always have had these issues. I know Oklahoma, my 
God, when you think back in history the problems that Oklahoma 
has had and California over the years with drought. This is 
like buying a really good insurance policy, and while we are 
doing it become a leader in the world in these technologies. So 
I am excited to work with you, Mr. Chairman, and I think this 
committee can really light a fire under this desal and 
recycling, the kind of things we like to see happen.
    Senator Inhofe. I think that will happen, and the timing 
could not be better. I know there is a simple answer to this.
    Mr. Price, when you are talking about researching it, you 
have Barbara and me, and you have the big ocean out there and 
we have the little Red River. Is your research into technology 
and all that, will that equally apply to both? Or do you 
concentrate in one area that is more advanced looming 
technology in one area than the other? Or is it the same?
    Mr. Price. The technologies remain the same, but for 
brackish water like the Red River, it is a lot less expensive. 
It takes less energy to remove the dissolved salts because 
there are fewer salts.
    Senator Inhofe. Well, Mr. Dalton, we will submit a question 
for the record to get new details on how to make chloride 
control construction a reality in our Area 6 that we are so 
concerned about.
    Anyway, the timing is right, we are getting into our WRDA 
bill. That is what this is all about, and it has been a problem 
in my State for a long time, and it is one that--it would kind 
of be fun to solve a problem instead of just delay it. We are 
anticipating doing that.
    So I think any other comments any member of the panel would 
like to share with us on this committee, while we only have the 
two of us here, we have staff from all the rest of the 
committee, and they are very interested in this issue. Any 
other comments you want to make?
    All right, in that case we are adjourned. Thank you very 
much for coming.
    Senator Boxer. Thank you so much, everybody.
    [Whereupon, at 10:57 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
